LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 4, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-659:

LARRY THOMPSON V. PAGIEL CLARK, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Current and
Former Prosecutors, Department of Justice Officials, and Judges on January 4, 2021, I
caused service to be made pursuant to Rule 29 and the Temporary Order of April 15,
2020 on the following counsel for the Petitioner and Respondents:
PETITIONER:
Amir H. Ali
Roderick & Solange MacArthur
Justice Center
501 H St. NE
Suite 275
Washington, DC 20002
202-869-3434
amir.ali@macarthurjustice.org

RESPONDENTS:
Devin Andrew Slack
New York City Law Department
100 Church Street
New York, NY 10007
212-356-0817
dslack@law.nyc.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Current and Former Prosecutors, Department of Justice Officials, and Judges in an
official “first class mail” receptacle of the United States Post Office as well as by
transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 4th day of January 2021.

